No.
IN THE
SUPREME COURT OF THE UNITED STATES

Solomon Adu-Beniako
PETITIONER

vs.
Licensing and Regulatory Affairs (LARA)
RESPONDENT

b

PROOF OF SERVICE
I, Solomon Adu-Beniako do swear or declare that on this date, June 28,2021 as required by U.S. Supreme C
PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding or that party’s counsel,;
served, by depositing an envelope containing the above documents in the United States mail properly addresj
postage prepaid, or by delivery to a third-party commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Licensing and Regulatory Affairs (LARA)
Ottawa Building
611 W. Ottawa
P.O. Box 30004
Lansing, MI 48909
I declare under penalty of perjury that the foregoing is true and correct.
Executed on June 28,2021
/s/ Solomon Adu-Beniako
SOLOMON ADU-BENIAKO

